. \-                         . )





       Deparment of Health and Human Services
               ' OFFICE
           INSPECTOR GENERAL




       EFFECTIVE OMBUDSMAN PROGRAMS

                Six Case Studies





                     UlVJCE$.



                                    RiChard P. Kusserow
                                    INSPECTOR GENERAL
              '0



                   lt"cliG
                                       JU   1991
                                                                                                           , .




                                    OFFICE OF INSPECTOR GENERAL

The mission of the Offce of Inspetor Genera (DIG), as madate by Public Law 95-452 , as
amended, is to protect the integrty of the Deparent of Health and Huma Servces ' (HS)
progrs as well as the health and welfare of beneficiares served by those progrs. This
statutory mission is cared out thugh a nationwide network of audits, investigations, and
inspections conducted by            th
                                DIG operating components: the Offce of Audit Services , the
Offce of Investigations, and the Offce of Evaluation and Inspetions. The OIG also informs the
Secreta of HHS of progr and management problems, and reommends courses to corrct
them.

                                      OFFICE OF AUDIT SERVICES
The DIG' s Offce of Audit Servces   (OAS)  provides al auditig servces for             llS,
                                                                                 either by
conducting audits with its own audit resoures or by overseeing audit work done by others.
Audits examne the performance of HHS program and/or its grtes and contractors in
carng out their respective responsibilties, and ar intende to provide independent
assessments of HHS program and operations in ordr to reuce waste, abuse and
mismanagement and to promote economy and effciency thughout the Deparent

                                     OFFICE OF INVESTIGATIONS
The DIG' s Offce of Investigations (01) conducts crmial, civi, and adistrative
investigations of allegations of wrngdoing in HHS progrs or to HHS beneficiares and of
unjust enrchment by providers. The investigative effons of 01 lead to crminal convictions,
admnistrative sanctions, or civil money penalties. The 01 also overses State Medcaid frud
contrl units which investigate and prosecute frud        and       patient abuse in the Medcaid program.

                      OFFICE OF EVALUATION AND INSPECTIONS
The DIG' s Offce of Evaluation and Inspetions (DEI) conducts shott-term management and
progr evaluations (called inspections) that focus on issues of concern to the Deparent, the
Congress, and the public. The fmdings and reommndations contaned in the inspections
repons generate rapid, accurte, and up-to-dte information on the effciency, vulnerabilty, and
effectiveness of deparenta programs.

This repott was prepard under the diction of Thoma F. Tully, the Regional Inspector General
for the Offce of Evaluation and Inspections, and Alan S. Meyer, Deputy Regional Inspector
General , Offce of Evaluation and Inspections, Region II. Pancipating in this project were the
following people:



Renee Schlesinger Project Leader               Alan S. Levine, 
        Headuarters
Demetr Arapakos                                Thomas Puris,
           Region IX
Nancy Harson
Raul Marnek
Deparment of Health and Human Services

                  OFFICE
    INSPECTOR GENERAL





EFFECTIVE OMBUDSMAN PROGRAMS

         Six Case Studies





             ~ S UlVJCE$'



                            RiChard P. Kusserow
                            INSPECTOR GENERAL
        '0
             + OEI-
             ~lt"dIa
                                  02- 90- 02122
                     EXECUTIVE SUMMARY

 PURPOSE

 The purose of this repon is to present case studies of the six State Ombudsman program
 visited durg the " Successful Ombudsman Progrs " inspection (02- 90- 02120).


 BACKGROUND

 The State Long Term Car Ombudsman progr was established under the Older Americans
 Act in response to growing concern over the poor quality of care in nuring homes. The Act
 requires each State Unit on Agig to establish and operate, either diectly or under contrct, an
 ombudsman progr.

 The ombudsman is to be an advocate of the institutionalize elderly to ensure that they have a
 vigorous voice in their own treatment and care. Some ombudsman activities include
 investigatig and resolvig complaints on behalf of elderly residents of long term care facilties
 and providing information on long term car issues to residents, public agencies, legislaturs and
 the community-at- Iarge. Most ombudsman progrs have volunteers in addition to paid         sta
 who car out many of these functions.

 In October 1988, the Admnistration on Aging funded the formation of the National Center for
 State Long Term Car Ombudsman Resoures to provide trning, technical assistance and
 inormation exchange on long term care and ombudsmen issues to ombudsmen.

 Prior Study

  The case studies in this repon result from a recent DIG study, entitled "Successful Ombudsman
  Programs " (OEI- 02-90- 02120), which reponed the charcteristics of successful long term car
  ombudsman progrs. The study found these programs to be highly visible though the use of
  both paid staf and an extensive volunteer progr. They visit facilties frequently, tyically
  weekly. Additionally, they handle complaints expeditiously, are highly publicized, obtan
  adequate funding, and effectively recruit, train and retain volunteers. The study also found that
. ombudsmen want additional suppon: they would like the National Resource Center to get more
  involved in traiing, as well as become more active in circulatig information about best
  practices. These case studies are examples of the type of information ombudsmen would like
  disseminated.


 METHODOLOGY

 The six State ombudsman programs visited are: California, Massachusetts, Michigan, Ohio, the
 Distrct of Columbia and New Jersey. The team chose Calfornia, Massachusetts, Michigan and
Ohio because they received the most reommendations from other ombudsmen as having the
best overal programs and were fruently so cite by expens in the field and in the literatu
review. We selected the Distrct of Columbia and New Jersey, both also well regarded, primarly
because of their unique featus: New Jersey s independence and strong enforcement focus and
the Distrct of Columbia s contrcts for ombudsman services with the American Association of
Retid Persons (AARP) and strong legal suppon.
Durg the visits, the State ombudsman, sub- State progr offcials, dictors of the State Units
on Agig, advocacy    grups and/or other expens in the field provided information on how the
progrs ar strcturd, why they are effective and what makes them unique.

CASE STUDIES

California   progr is notable for its size, dedcation and trning of paid and volunter         sta,
strong enabling legislation, extensive publicity, and goo relationships with the provider
community and the State Unit on Aging.

The District of Columbia achieves success though fruent visitation, comprehensive enabling
legislation, extensive legal suppon, and a strng   volunteer   component.

Masachustts is effective because of its adequate fundig, excellent communication and
coordiation , close relationship with the State Unit on Aging, goo enabling legislation, strong
volunteer program, and extensive publicity.

Michigan attbutes its success to an intense commtment to reform, advocacy, and quality of
care, a supportve political envirnment, excellent communication and progr cohesiveness,
effective complaint resolution , comprehensive education of residents and their famlies,
innovative fund rasing, and a goo volunteer progr.


New Jersey s outstanding featurs    include its independent admnistrative location, powerfl
legislation , and adequate funding. The law enforcement, health care, and legal backgrounds of
its sta are alsa noteworty.

Ohio s effectiveness results from adequate fundig, comprehensive volunteer training, strong
influence on State legislation, effective enabling legislation , and readily available legal support
                                                               ............ .......................... .................... .......




                        TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION..................................................................................................... .


CASE STUDIES.........................................................................................................


       Calfornia .............................................................................................................


      Distrct of Columbia.............................................................................................


      Massachusetts....................................................................................................... 7


      Michigan .................................. ...........................................................................


      New Jersey...... .............. .......... .......... 


      Ohio................................................................................................................... .

                            INTRODUCTION

PURPOSE

The purose of this inspection is to present case studies of the six State Ombudsman progrs
visited onsite durng the " Successful Ombudsman Progrs " inspection (02- 90- 02120).


BACKGROUND

History

The State Long Term Car Ombudsma program was established under the Older American
Act (OAA) in response to growing concern over the poor quality of car in nuring homes. In
1972, the Admstration on Agig (AoA) awarded seven States contrcts to car out long term
care ombudsman demonstration projects. In 1975, amendments to the OAA authorized AoA to
make grants for al States to have ombudsma projects. Furer amendments in 1978 requir
each State Unit on Agig to establish and operate, either dictly or under contract, an
Ombudsman progr. In 1981 , the Ombudsman progr was extended to board and care
facilties.

Pror to FY 1987 the OAA requird States to spend at least one percent of their supportve
servces alotment under TItle III- B of the OAA or $20, 00, whichever was grater, to suppon
statewide ombudsman activities. Based on amendments in 1987 States must in the futue spend
at least as much on the Ombudsman program as they did in FY 1987, as long as Federal
alotments continue above FY 1987 levels.

Role of the Ombudsman

The ombudsman is an advocate for the institutionalized elderly to ensure that they have a
vigorous voice in their own treatment and care. Some activities include investigating and
resolving complaints on behalf of elderly residents of long term care facilties, informng
residents of their legal rights and providing information on long term care issues to public
agencies, legislatues and the community-at- Iarge.

Most State ombudsman programs operate under the diect auspices of their State s Unit on Aging
and have sub- State ombudsma programs. These ar either managed diectly by the State or are
sponsore by a varety of organizations, including Ara Agencies on Aging, other sub- State
governmental units, citizen advocacy comminees and private, non- profit organizations.

Most ombudsman progrs also have volunteers who car out a varety of functions, including
makng frendly visits to facilities, resolving complaints and informing the comm\lnity about the
progr.
Prior Study

The case studies in ths repon result from a reent OIG study, entitled " Successful Ombudsman
Programs " (OEI- 02- 90- 02120), which reponed the charcteristics of successful long term car
ombudsman progrs. The study found these programs to be highly visible: though the use of
both paid sta and an   extensive volunteer   progr they visit facilties frequently, typically
weekly. Additionally, they handle complaints expedtiously, are highly publicize, obtain
adequate funding, and effectively recrit, train and retan volunteers. The study also found that
ombudsmen want additional suppon: they would like the National Resource Center to get more
invloved in traiing, as well as become more active in cirulatig informtion about best
practices. These case studies are examples of the   ty of information ombudsmen would lie
dissemiated.


METHODOLOGY

The six State ombudsman program visited are: California, Massachusetts, Michigan, Ohio, the
Distrct of Columbia and New Jersey. Their selection was based on      thfactors. First, the 52
State ombudsmen interviewed durng the " Successful Ombudsman Progrs " inspection named
other State program they believed to be the most successful. Second, other expens in the field,
such as Congrssional stafers and representatives frm the National Resource Center cited
outstanding progrs. Finally, a literatue review identied ceron State progrs with unique
or outstanding featues.

The team chose to visit California, Massachusetts, Michigan and Ohio because they received the
most votes from other ombudsmen for having the best overal programs. Also, expens in the
field and the literatur review frequently cited these States as the most successful. The team
selected the Distrct of Columbia and New Jersey, both also well regared, primaly because
their unique features. The New Jersey progr is one of the few located in an independent State
agency and has a strong enforcement focus. The Distrct of Columbia contrcts out all its
ombudsman services to the American Association of Retire Persons (AARP) and has unusually
strong legal suppon.

Durg the on site visits the State ombudsma, sub- State program offcials, dictors of the State
Units on Aging, advocacy groups and/or other expens in the field provided information on how
the six programs are strcturd, why they ar effective and what makes them unique. In al, the
team conducted 28 interviews.
                              CASE STUDIES

CALIFORNI
Key Features:



                 Size and dedication of paid and volunteer staff


                 Staff training

                 Strong enabling legislation

                 Extensive publicity


                 Good relationship with provider community
                 Supportfrom the State Unit on Aging

Program Strcture


At the State level, the Californa Ombudsman progr is located within the California
Deparent of Aging (CDA), an independent agency within the umbrella State Health and
Welfare Agency. At the local level , the 34 substate ombudsman offces are contrcted out
though the Area Agencies on Agig (AAAs). Loal progrs are locate in a varety of public
and private agencies; some ar freestanding and independent.

The Californa Ombudsman progr serves residents of skilled nursing facilties, intermediate
care facilties and residential facilties for the elderly and developmentaly disabled. It oversees
about 1  300 skiled nursing facilities, with nearly 122,00 beds, and 10, 100   board and   car
facilties, with alost 139,00 beds.

Outstanding Features

With more than 110 paid staf and over 700 volunters, Caifornia has one of the largest
ombudsman progrs in the countr. The dedcation of its paid staf and volunteers is
consistently highlighted. Accordig to the State ombudsman, " the ombudsman wil hang in
there and persevere for the patient. This is what gets cases resolved. The program attracts high
quality people. " One ombudsman coordinator agrs: " the people in the program are the biggest
success factor - they ar involved because they car. " Sta thoughout California often put in
60- 80 hour weeks and go out on late night cals when necessar.

Staf and volunteer   trning is crucial. A madatory 36- hour trning progr prepars
volunteers to visit facilties and deal with complaints. Some local programs offer this training at
community colleges which offer credit for the course. At smaller rural progrs, the
ombudsman coordinator wil provide all the trning diectly. In addition to specialized trning
for volunteers, the State ombudsman offers semi-annual trning and statewide conferences for
managers and professional staff to keep updated on relevant issues.
A few local ombudsman progrs ar experimentaly restrctug volunteer duties into varous
levels to help prevent the overload and burout crated when volunteers ar expected to cover all
areas. By doing so, program coordnators can alow volunteers to specialze in visits, conflct
resolution, elder abuse cases, or community speakng; duties are now based on personal interests
and special trning.

Respondents repeatey cite strong enabling legislation as an imponat factor. The California
Imunity Law protects ombudsmen from being sued for actions they take durng offcial duty,
unless those actions ar grssly negligent. Additionally, California s " Willful Interference Law
                                        ta
ensures access to facilties, the abilty to to the patients and the right to review patient
records.

The California Ombudsman progr is also well known by the public. It has hired a public
relationsfi   to publicize its program. Prgram visibilty has ben enhanced thugh public
service anouncements, commercials, posters, an 800 hotline and presentations to community
groups and corporations. The progr has recently produced two television commercials, one
with California s fIrst lady and the other, in Spanish , with a well known actor. Finally,
information on the progr must be poste in facilties and included in long term car adssion
agreements.

State policy in recent year has strssed the establishment of goo relationships with facility
owners and managers, in contrast to the confrontational pattern which allegedy existed in the
early year of the progr. Providers fruently ask ombudsmen to help resolve problems and
disputes. Ombudsmen also offer training to providers on aging issues and community resources.

Suppon from the State Unit on Aging (SUA) strngthens the California progr. It provides the
ombudsman progr with admnistrtive assistance, legal representation and it suppons strong
enabling legislation. The SUA has also forged close links with the licensing and enforcement
staf in the Deparent of Social and Health Services. The ombudsman program also has goo
workig relationships with severa other key State agencies such as adult protective services and
licensur.

Contact Person:	 Sterling Boyer
                 Calfornia State Ombudsman
                 160 K Strt

                 Sacramento, CA 95814
                 (916) 323- 6681
DISTRICT OF COLUMBIA

Key Featres:


                  Frequent visitation
                  Comprehensive enabling legislation
                  Extensive legal support
                  Strong volunteer component

Program Strcture


The Distrct of Columbia s Long Term Care Ombudsman program was established in 1975 as
pan of the Offce on Aging. In 1985 day-to-day responsibilty was      trsferr    to the Legal
Counsel for the Elderly (LCE), a legal suppon component of the American Association of
Reti     Persons (AARP). This change enhances legal suppon servces and avoids a confct of
interest since the Distrct owns the nursing homes. Although the LCE is the designated
ombudsman offce, it contracts with      thlocal social service agencies to provide " local"
ombudsman services thoughout the city. These agencies ar members of the senior service
network of the Offce of Agig.

The tota funding for the Distrct s program is $257, 00, from a combination of Federa, Distrct
and AARP funds. Additionally, AARP provides a significant amount of additional in- kind and
other support

The Distrct  s ombudsman and the thee ombudsmen who head the local contract progrs          ar
all lawyers. They represent approximately 5, 00 residents in 287 licensed long term car
facilties.

Outstanding Features

Freuent visitation is a key featu of this progr. The thee local ombudsman projects have
performce stadads in their contrcts requirng each nursing home with over 150 beds to be
visited weekly, while smaler ones should be visited bi-weekly. Typically the visits ar even
more frequent.

The Distrct    s enabling legislation is comprehensive. It allows the LCE to sue nursing homes or
board and    car facilities for violations of " residents rights " and brig lawsuits on behal of
incompetent residents. It also includes a protective trsfer provision which gives residents the
right to be notified and to have a hearng before being trsferred within a facility or to another
institution. Recently, when about 100 residents of a nuring home were being trsferrd due
an asbestos problem, the LCE theatened to sue over the way they were being trsferrd. The
facilty subsequently entered into an agrement which ensurd that the residents ' rights under the
trsfer law would be upheld.
                                                                           ...




Distrct ombudsmen also have statutory authority to initiate receivership for facilties that are
operating in a " sub-standad" manner. In 1989 the LCE was involved in thee receivership
cases. It intervened on behalf of the residents of one nursing home where mentaly il, indigent
and frai patients were denied their $55 monthly personal nees allowance. In addition, the
Distrct law gives the ombudsman subpoena authority to access records without a patient
consent.

As the Distrct     progr is operated by the LCE , it has imedate access to a staf of full- tie,
par- tie     and volunteer lawyers.   Accordig to one official, there ar   no    political or bureaucratic
barers that other ombudsman progrs might face where legal advice and assistace must be
obtained though another State agency, such as the Attorney Genera' s office. He            crts
                                                                                          the
extent of legal resources available for allowing the ombudsman to sue to get the Distrct to issue

a nure s aide trning regulation and licensing regulations for nursing homes and board and car
facilties.

Volunteers ar    recruitedthough the AARP which has 40, 00 members in the Distrct One local
offcial indicates that the Distrct ombudsma has ben very successful in " tapping into the
AAR ban... AARP has had lots of experience managing volunteers...
Volunters ar also recrited by word-of-mouth from other volunters. Accordig to
ombudsman offcial, volunters recrited this way tend to work out better because they ar               more
realstic about the job.



The Distrct     progr has about 60 volunteers, not including lawyers. Volunters visit facilities,
receive complaints and sample foo;      are not alowed, however, to conduct complait
                                         they
investigations. To retan them, LCE has an annual volunteer "recognition " ceremony. Also,
each contractor holds monthly volunter       meetings.


A policy manual developed by LCE requirs that each sta member, includig volunteers,
receive trning. The trning is conducted by the thee contrctors on an ongoing basis. A large
trning session for any new large pool of volunteers, however, is conducted by the Distrct
ombudsman. In a recent report the Distrct ombudsman noted that " trning was provided
50 ombudsman volunteers to enhance advocacy skills and suppon their activities in the nursing
homes. "



Contact Person:	 Anne Har
                     Distrct of Columbia State Ombudsman
                     Legal Council for the Elderly
                     1909 K Stret, 

                     Washington, DC 20049
                     (202) 833- 6720
MASSACHUSETTS

Key Features:



                 Adequate funding

                 Excellent communication and coordination
                 Close relationship with the State Unit on Aging
                 Good enabling legislation
                 Strong volunteer program
                 Extensive publicity



Program Structure

The Massachusetts progr began in 1973 as one of the fIrst six pilot ombudsman progrs
the countr. It is responsible for the 732 long term care facility subject to licensure by the
Deparent of Public Health, which includes nursing and rest homes. The Offce of the State
Ombudsman repons to the Executive Offce of Elder Affais (MA State Unit on Agig), a
cabinet- level agency that report dictly to the Governor. The program consists of 236
volunteers and 94 paid staf members and has a budget of $1. 8 millon, most of which comes
from Title il.

Outstanding Featres

Respondents fruently mention adequate fundig as the mai reason for their progr
success. Compared to other States, their budget is enormous. Although they feel they could
always use more money, they can aford to hir an adequate number of paid sta, thus giving the
progr statewide coverage and a regular presence in facilties.
Ombudsmen also cite excellent communication and coordination on all levels as contrbu ng to
success. Massachusetts has many mechanisms in place to assure that this occurs. For instance,
the 27 local program dictors attend monthly meetigs to discuss their work , problems they
have encountered, solutions and genera aging issues. They also share a procedurs manual
which contans admnistrtive procedurs and outlines policies for staf supervision of
volunteers. One respondent claims that this maual "keeps the group one cohesive team.
Finally, the Offce of the State ombudsman contrbutes substantially to progr coordnation
through annual program assessments of how progr diectors ar communicating with other
agencies and how formal referrals are handled. These assessments also encourage yearly
recruitment and training goals. Loal ombudsmen feel they can always call the Office of the
Ombudsman for informtion , advice or emotional suppon.

The close relationship and daily communication between the ombudsman progr and the State
Unit on Aging (SUA) suppon the program s success. The SUA considers the ombudsman
program an integral pan of its operation and suppons the program s work in many ways. The
SUA is commtted to increasing funding for the ombudsman progrm; works with it on public
policy issues; and offers it technical ass istance. Ombudsman staff feel that their advocacy work
is strngtened by the SUA. One respondent states, " I can t imagine another State agency that
would provide us with the platform to do the advocacy we do. We have nothing to do with
licensing and certfication agencies so we can tae a stad against other agencies. No one has
told me to curl my advocacy effons. " The ombudsman has access to policy and regulatory
development meetings because the SUA is a cabinet level agency. As an example of the close
relationship between the ombudsman progr and SUA the ombudsma was instrmenta in
gettig legislation passed that requird training for nurse s aides.
Their enabling legislation has been a grat benefit to ombudsmen. It gives them imunity: if
ombudsman is actig in goo faith, he or she cannot be sued. By law, the ombudsmen have
24- hour access to all facilties. While they have access to resident records without consent, this
has never been practiced; ombudsmen feel it is appropriate to look at these records only with the
agreement of the resident.

Massachusetts has develope an excellent volunteer progr. Recruitment is done at the State
and local levels by paid sta, other volunteers and thugh AARP maiings. The application for
volunteers clearly outlines program policies and the program s expectations of volunteers. After
recritment, the new volunters attend a comprehensive five- day State certfication trning and
each ar then assigned to a specifc facilty. Massachusett has been able to retan many
volunteers for more than 10 year because they believe trating volunteers the same as paid sta
and respecting their opinions is the key to retaning them. The paid ombudsman staf encourages
volunteers to come up with solutions to complaints in facilties.

The ombudsman    progr in Massachusetts is well publicized, using a combination of print,
television , and radio media to reruit staf and educate residents and the community-at- Iarge.
Program dictors conduct     inservice traiing at local facilties and often speak about long term
care issues at public gatherigs. The progr also recruits well- known people, including the
Governor, to do public service announcements.

Contact Person:	 Shelia  Mar
                 Supervisor State Operations
                 Executive Office of Elder Affai
                 38 Chauncy Street
                 Boston , MA 02111
                 (617) 727- 7750
MICHIGAN

Key Featres:


                Intense commitment to reform, advocacy, and quality of care
                Supportive political environment
                Excellent communication and program cohesiveness
                Effective complaint resolution
                Comprehensive education of residents and their families
                Innovative fund raising


                Good volunteer program

Program Structure

The Michigan   progr has a contrct with a Unite Way agency called Citins for Better Car
(CBC) to provide the activities of the State Ombudsman Offce and 12 of the 14 local offces.
The remaning two local offces work closely with the CBC. Michigan has a tota of 22 full time
equivalents and 70 volunteers to cover 400 nuring homes and 4300 board and car homes.
These long term care facilties house a total of 85, 00 beds.

The budget for Fiscal Year 1990 was $805, 00, a combination of Federa, State, local and United
Way fuds. Because Unite Way money is included, the ombudsmen are empowere to serve al
residents in long term care facilties, not just the elderly.


Outstanding Features

Respondents highlight the program s intense commtment to reform , advocacy and quality of
care. This mission of the program is recognized on al levels, both inside and outside the agency.
Although years ago CBC representatives were considered " mavericks , tody they are accepted
and trsted as authorities on aging issues. One respondent reflects this change when she says,
 Statewide there is no ombudsman you can t trst with a referral. Their bottom line is the client,
and if that makes them unpopular, tough. " Another agrees, " I haven t heard of a more proactive
progr than Michigan.
Ombudsmen feel that the supportve political envionment also contrbutes to the progr
success. The ombudsman offce has a strng relationship with the State Unit on Aging (SUA),
which has appointed a special liaison to faciltate communication with the progr and provide
technical assistance. Both sides agre that this open communication is essential.

Cohesiveness is another major strength. Respondents feel there is a sense of famy, with one
respondent describing the progr as " twenty-two people actig as one. " Another says there is a
 spirt of trst and shared mission. " This cohesiveness is a result of excellent communication
and a shared philosophy of empowering the client. Ombudsmen are very focused in their
purose: they serve the client as best as they possibly can. The client is consulted before any
action is taen   on a   complaint and has the final word on how his or her case should proceed.

The State and local progrs maitan excellent communication though newsletters, weekly
mailings and constat contact. Information is shar systematically and everyone is included.
This networking expands beyond the State: the Michigan State Ombudsman is very wiling to
share her expertse with other States: she plans to host a newly appointed ombudsman from
another State in her home for a week so she can explain how Michigan progr operates.

The Michigan progr has been effective in complaint resolution: its percentage of complaints
resolved is relatively high (close to 80 percent). The program also enjoys a high level of client
satisfaction. As soon as a complaint comes into the offce, the ombudsman is very responsive
and begis planning a coure of action with the client

The comprehensive education of residents and their famlies is another strengt. Ombudsmen
call this " famy suppon. " They speak to residents and their famlies in understandable terms
about long term care issues to help them become sophisticated users of information needed to
make lie decisions. The CBC also sponsors workshops and conferences concerning such topics
as health car issues, restrnts, fmancing and Medcaid estate planning. The CBC also works
closely with resident councils and hospital discharge planners.

The CBC feels that it exhibits best practices in fund rasing by packaging its gratest strength: its
knowledge about agig issues. As a United Way agency, CBC can charge hospitas, nursing
homes, and other organizations for inservice traiing, mileage, and materials such as brochures.
The CBC has an assistat secretar diector as a full- time fund raiser who raises money though
the sale ofrae   tickets, sponsors " Bowling Bowls , and receives donations from diect mailings
to foundations and CBC members.

Michigan s volunteers also contrbute heavily to the progr s effectiveness. Ombudsmen
recruit by defining the job as diffcult from the begining. They promise the volunteers staf
suppon, supervision, and backup and supply a comprehensive reference manual and goo
tring materials. Michigan retains its volunteers by recognition in award ceremonies,
conferences, holiday pares, and a monthly newsletter just for volunteers.


Contact Person:	 Holls Turnham
                 Michigan State Ombudsman
                 Citizens for Better Care
                 1627 East Kalamazoo
                 Lansing, MI 48912- 2701
                 (517) 482- 1297
NEW JERSEY

Key Featres:


                Independent adinistrative location


                Powerfl legislation
                Adequate funding

                Law enforcement, health care, and legal background of staff

Program Strcture


The New Jersey progr is one of the few located in an independent State agency, the Offce of
the Ombudsman for the Institutionalize Elderly (DIE) and has a strong enforcement focus. It is
entily State funded, with a fluctuating annual budget of approximately $1.1 millon.
Most of OlE' s 26 paid full- time sta members ar professionals trained in the aras of law
enforcement and health car, all located in the State offce in Trenton. The offce is comprised of
a Public Affai Unit, a Legal Deparent, an Investigations Deparent and an Admistrative
Unit. These components work together to fulfill the progr s responsibilties of receiving,
investigatig, and resolving complaints on behal of all institutionalize long term car patients,
residents, and clients aged 60 or over. They also monitor the activities of State agencies relatig
to the institutionalze care of the elderly. New Jersey has approximately 700 long term car
facilties, consistig of about 40, 00 beds. These facilties include nursing homes, homes for the
aged, residential health care facilities, rehabiltation hospitas, State veteras homes, class "
boardig homes, State and county psychiatrc hospitals, and regional developmenta centers.


Outstanding Featres

New Jersey progr is uncommon in many ways. The OlE' s independent admistrative
location, powerfl legislation , funding and strong enforcement philosophy have set it apan from
the traditional model of an ombudsman program.

Although located in New Jersey Deparent of Community Affai for logistical puroses, DIE
is independent by statute and exempt from contrl or supervision by any executive depanment of
State government. The Governor appoints the Office of Ombudsman s chief executive and the
DIE report dictly to the Governor and Legislatur. Representatives from the ombudsman
offce feel their autonomy allows them to act quickly and effectively. In fact, the offce usually
responds within 24 hours of receiving a complaint and even within minutes in some abuse cases.
Many consider this a key to New Jersey s success. The DIE benefits from its location in other
ways: it mantans a high profie and a cenan amount of clout because of its close association
with the Governor and State Legislature.

New Jersey s strong enabling legislation gives the ombudsman broad powers. The ombudsman
has 24- hour access to any facilty without prior notice. If he or she is denied access, the facilty
is stifly fined. Also, the ombudsman has the abilty to grant confidentiality and immunity to all
complaiants and to issue subpoenas for documents or for individuals to testify on matters
regarding a complaint, both of which are considered essential to a progr that relies so heavily
on investigation.

The DIE enjoys the benefit of relatively adequate fundig and stamg. With a curent annual
budget of $1.1 millon, DIE is one of the best funded progrs in the countr. Yet, New Jersey
does not use any federa funds: it relies only on State money. Since New Jersey has no local
progrs, all funds are expended at the State level in the Trenton offce.
The DIE hires professionals with law enforcement, health care, or legal backgrounds because
New Jersey, more than any other State, strsses enforcement. The DIE has performed " nighttme
raids " with video cameras as pan of its enforcement activities. In- house attorneys and a State
ombudsman with a law degree are progr strengths. The legal deparent is consulted
regarg serious complaints, such as abuse, and those complaints with legal ramcations. The
deparent also monitors judicial decisions, statutes, rules and regulations which involve the
long term car industr, and works with the State Legislatur to crate new laws.

Contact Person:	 Harold George
                 New Jersey State Ombudsman
                 28 West State Street
                 Room 305 CN 808
                 Trenton , NJ 08625- 0807
                 (60) 984- 1811
OHIO

Key Features:



                 Adequate funding

                 Comprehensive volunteer training

                 Strong influence on State legislation

                 Effective enabling legislation
                 Available legal support

Program Structure

The Offce of the Long Tenn Car Ombudsman in Ohio is housed within the Ohio State Unit on
Aging (SUA). The State ombudsman report ditly to the Dirctor of the SUA , who in tur
a cabinet- level offcer reportng diectly to the Governor s offce. There are 12 local
ombudsman programs in Ohio: 7 are under the auspices of the Area Agency on Aging, while the
remaning 5 are contracted out by the Area Agency on Aging.

The ombudsman progr has legislative authority over nursing homes and home health care,
and wil soon be responsible for board and car homes. Ohio has 1 100 licensed nursing homes
with 93, 00 beds and 70 licensed board and car homes with 60 beds. New legislation soon to
become effective wil give the ombudsman authority to inspect and visit board and car homes in
the same way as it curntly does nursing homes. As of now, visits to board and care homes are
limited to investigating complaits or at the invitation of the home owner. The ombudsman
progr is also involved in home health car though the investigation of complaints of any
community- based long term care service.

The Ohio program has an annual budget of $1.8 millon from Federa, State and private sources,
which allows for 50 full- time professional sta and over 200 volunteers at the local level.

Outstanding Featres

Respondents cite adequate funding as one significant attbute. To enhance this funding Ohio
imposes a the- dollar bed tax on facilities that goes to the ombudsman progr and allows for a
large well trned sta and volunteer group.

Volunteer traiing guidelines,   set down in legislation , employ a tier approach, with trning
hours linked to areas of responsibilty and continuing education requirements. For example, 10
hours of initial training and 6 hours of additional training per year ar needed for a volunteer to
perform outrach; 100 hours of initial training ar needed for a volunteer to handle complex
complaits and requir 12 hours of additional trining each year. These levels of trning build a
career ladder for the volunteers so that they wil be more inclined to stay in the program.

 The Ohio progr is pancularly effective because of the influential role the ombudsman plays
 in formulating State legislation on long tenn care issues. The ombudsman panicipates in making
policy on may interagency issues, such as the reuiment for intermedate sanctions under the
Omibus Budget Reconcilation Act. People involved in State long term care issues feel that
with the ombudsman s pancipation in the policy proess, the impact of regulations on residents
wil be considered. They consider the ombudsma a tremendous resoure in formulating
                                                                                        policy
and view their relationship with the ombudsman as a cooperative interaction. The ombudsman
can also help anculate what nees to happen to State policy to protect patient s nees and rights.
Funer, beause of the ombudsma s effort in this ara, the progr is seen as           stag
develop its own agenda, above and beyond its role as an advocate for the elderly.

Ohio benefits frm recently amended enabling legislation. It provides for a detaed trning
progr for sta and volunteers; protects the program by providig imunity beyond the
provisions in the OAA; gives the ombudsma the right for injunctive relief to protect resident's
rights; insurs access to records; and clearly delineates the authority of the offce. Ombudsmen
are satisfied with the legislation and do not anticipate revisions in the foreseeable futur.

Additional strngths of the Ohio progr include: strng legal representation from the Attorney
General' s Offce and private legal services; the presence of attorneys on the ombudsman s sta;
and excellent support frm , and access to, the SUA. The SUA advocates for the progr at the
State level , dissemiates information about the program and provides admnistrtive suppon.

. Other reasons for success cited include the relative independence of the progr, community
  suppon for the program, and a perception amongst nursing home providers and residents of the
  progr s past effectiveness in resolving complaints, which makes them more likely to respond
  to the ombudsma s actions.

 Contact Person: Roland Hornbostel
                 Ohio State Ombudsman
                  Dept. of Agig
                  50 West Broad Strt, 8th Floor
                  Columbus, OH 43266-0501
                  (614) 466- 9927
